           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  PERFORMANCE MEASURE REVIEW:
  RELIABILITY OF THE DATA USED TO
    MEASURE DISABILITY CLAIMS
            PROCESSING

   November 2001     A-02-00-10017




 AUDIT REPORT
                                      Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration  officials, the Congress, and the public.

                                     Authority

The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  0   Conduct and supervise independent and objective audits and
      investigations relating to agency programs and operations.
  o   Promote economy, effectiveness, and efficiency within the agency.
  0   Prevent and detect fraud, waste, and abuse in agency programs and
      operations.
  0   Review and make recommendations        regarding existing and proposed
      legislation and regulations relating to agency programs and operations.
  0   Keep the agency head and the Congress fully and currently informed of
      problems in agency programs and operations.

  To ensure objectivity,   the IG Act empowers   the IG with:

  o   Independence to determine what reviews to perform.
  0   Access to all information necessary for the reviews.
  0   Authority to publish findings and recommendations    based on the reviews.

                                       Vision

By conducting independent and objective audits, investigations,  and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                            ",." SBCU
                                                           :>Ci
                                                            ~~
                                                          W/tJS~
                                                          \ 1II1III~~
                                                             'J\'1ST\\t'
                                               SOOAL         SECURITY
                                                Office of the Inspector General
MEMORANDUM
Date:      NOV -6       2001
                                                                                           Refer To:
        Larry    G. Massanari
To:     Acting    Commissioner

         of Social    Security


From:   Inspector General


Subject:Performance Measure Review: Reliability of the Data Used to Measure Disability
       Claims Processing (A-O2-00-10017)


        The Government Performance and Results Act (GPRA) 1 of 1993 requires the Social
        Security Administration (SSA) to develop performance indicators that assess the
        relevant service levels and outcomes of each program activity .2 GPRA also calls for a
        description of the means employed to verify and validate the measured values used to
        report on program performance.3 The objective of this audit was to assess the reliability
        of SSA's data used to measure the following Fiscal Year (FY) 1999 GPRA performance
        indicators:

                                                                                 FY 1999               FY 1999
        Indicator                                                                  ~                    Actual

        Initial disability       claims processing      times (days)                 100                   105


        Number of initial disability           claims processed             2,090,000            2, 013,   08g4



        Number ofinifial          disability   claims pending                 408,000             457,823

        BACKGROUND

        SSA oversees two long-term disability programs. The Disability Insurance (Dl) program
        was established in 1954 under title II of the Social Security Act (Act). The program is
        designed to provide benefits to wage earners and their families in the event the wage
        earner becomes disabled. The Supplemental Security Income (SSI) program was

        1 Pub. L. No.103-62,      107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C. and
        39 U.S.C.).
        231 U.S.C. 1115(a)(4).
        3 31 U.S.C. 1115(a)(6).
        4 In its FY 1999 Accountability    Report, SSA indicated that there were 2,013,089 claims.     However, we
        found that the number of initial disability claims processed in FY 1999 was 2,012,047- an overstatement
        of 1.042 claims.
created as a result of the Social Security Amendments of 1972 with an effective date of
January 1, 1974. SSI, (title XVI of the Act) provides a nationally uniform program of
income to financially needy individuals who are aged, blind and/or disabled.

To determine eligibility, the claimant must first file a disability claim with SSA.
Personnel in 1 of SSA’s approximately 1,300 field offices (FO) conduct the initial
interview with disability applicants and assist them in completing the application. The
Modernized Claims System (MCS) is used to key in applications for DI. The
Modernized SSI Claims System is used to key in applications for SSI. Interviews for
both are conducted via the telephone or in person. Initial interviews are made to
determine the applicant’s non-medical eligibility on the basis of income, resources, and
work history. Basic medical information concerning the disability, medical treatments,
and identification of treating sources is also obtained.

Upon meeting the non-medical eligibility requirements, SSA sends the claims file to a
State Disability Determination Services (DDS) office. SSA is responsible for
implementing the general policies governing the development of disability claims under
the DI and SSI programs. SSA relies on DDSs for disability determinations under both
DI and SSI. In carrying out its obligation, each DDS is responsible for determining
claimants’ disabilities and ensuring that adequate evidence is available to support its
determinations. Once the DDS makes a disability determination, it notifies the FO, and
a letter is sent informing the claimant of the determination and of his/her appeal rights.

When a determination is made for a DI claim, MCS updates the Workload Management
System (WMS), and staff manually updates the Social Security Administration Claims
Control System (SSACCS). The Management Information Initial Claims Record
(MIICR) reads clearance information from WMS and SSACCS. MIICR writes data for
the completed claim into the MIICR Master File, which creates a file of completed claims
for the week. MIICR then creates a monthly file of completed claims and monthly
summary reports, which are obtained through the GETRSDHI5 module. These reports
are provided to the Office of Strategic Management for inclusion in SSA’s Annual
Accountability Report.

When a determination is made for a SSI claim, an initial determination date is posted to
the Supplemental Security Record, and claim data are forwarded to the SSI Claims
Exception Control System. This system ensures the claim is complete before the data
is sent to the SSI Claims Report (SSICR), which is a process that compiles the claims




5
  The GETRSDHI module allows users to extract detail and/or summarized data from the Retirement,
Survivors, Disability and Health Insurance data base, which provides information on the number of
beneficiary insurance codes, overall processing time and component time for claims controlled and
cleared on the SSA MIICR.


                                                  2
data for inclusion in various management information reports. These reports are
obtained through the GETSSICR6 module and provide statistics, which are included in
the annual Accountability Report.

SSA calculates the initial disability claims processing times (days) for inclusion in the
Accountability Report by obtaining monthly figures from the GETRSDHI and GETSSICR
modules. In a manual process, title II and title XVI monthly claims are recorded on a
spreadsheet and multiplied by their respective number of processing days to get the
“total number of processing days.” Title II and title XVI monthly processed claims are
added to obtain the FY disability processed claims, and title II and title XVI processing
days are added to result in the FY disability processing days. These two sums are then
divided (total number of processing days by total number of processed claims) to result
in the average FY claims processing days.

SSA calculates the number of initial disability claims processed and initial disability
claims pending for inclusion in the Accountability Report by obtaining monthly figures
from the National Disability Determination Services System’s (NDDSS) State Agency
Operations Report, FD-14. Claims are summarized and sorted for inclusion in various
weekly, monthly, quarterly, semiannual and annual reports. The monthly title II and title
XVI processed and pending claims are recorded on a spreadsheet and totaled at the
end of the FY. A small number of initial disability Hospital Insurance/Supplementary
Medical Insurance (HI/SMI) Federal Employee Medicare Only case claims are added to
this figure, which results in the FY processed and pending claims.

RESULTS OF REVIEW
We reviewed the reliability of the data used to measure the disability claims process for
initial disability claims processing times (days) and the number of initial disability claims
processed and initial disability claims pending. Although the data used to measure the
disability claims process was reliable, we found several conditions, which affected these
measures. These included an overstatement of the number of processed claims in the
Accountability Report and a lack of documentation on the processes used to calculate
the number of processed and pending claims. We also found that SSA used a
combined measure of both the DI and SSI programs for reporting the initial disability
claims average processing time, which does not take into consideration the differences
in the DI and SSI programs. SSA also uses inconsistent terminology and definitions for
the disability performance indicators.




6
 The GETSSICR module allows users to extract detail and/or summarized data from the SSICR data
base, which provides volume and mean processing time counts for SSA initial claims processed to
payment or denial. It includes overall processing time as well as the time involved in the processing
stages for each type of determination.



                                                    3
PERFORMANCE MEASURE DATA WAS RELIABLE

We found the data SSA used in calculating the initial disability claims processing times
(days) was reliable. We also found the number of initial disability claims pending was
calculated and reported correctly. However, although the data for the number of initial
disability claims processed was reliable, it was calculated incorrectly. This resulted in
the reporting of an incorrect number of processed claims for FY 1999.

OVERSTATEMENT OF THE NUMBER OF PROCESSED CLAIMS

The FY 1999 goal for the number of initial disability claims processed was
2,090,000 and SSA reported 2,013,089 claims. For pending disability claims, the goal
was 408,000 claims, and SSA reported 457,823 claims.

Our review disclosed that the reported number of 457,823 for pending claims was a
reliable measurement of performance. However, we found that the number of
processed claims was misstated. SSA reported that the actual number of processed
claims for FY 1999 was 2,013,089. We calculated that there were 2,012,047 claims.
The difference of 1,042 claims represents approximately one-half of one percent of the
total. A calculation error occurred when SSA manually added the 12 months of claims
posted from their spreadsheets. In the manual calculation, the initial claims were
properly posted to a spreadsheet. However, when adding the number of initial disability
HI/SMI claims to the total, some HI/SMI claims for two other categories, which were not
initial claims—reconsideration and other—were added to the total.

We discussed the improper calculation of the processed claims with SSA staff
responsible for the calculation. It was agreed that the 1,042 HI/SMI claims should not
have been included in the calculation. Also, as the processed claims for FY 2000 was
being calculated and submitted for reporting at the time of our discussion on this matter,
we were assured, and we verified, that this same error was not repeated. Further, the
figure reported in the FY 2000 Performance and Accountability Report representing the
number of initial claims processed in FY 1999 was adjusted to reflect the correct
number of 2,012,047 claims.

DOCUMENTATION FOR THE PERFORMANCE MEASURE INDICATORS FOR THE
NUMBER OF PROCESSED AND PENDING CLAIMS WAS LACKING

The Office of Management and Budget Circular No. A-123, Management Accountability
and Control states, “The documentation for transactions, management controls, and
other significant events must be clear and readily available for examination.”
Furthermore, GPRA requires agencies to “. . . describe the means to be used to verify
and validate measured values.” While some of the criteria needed to perform the
calculations used to generate the performance measures are contained in the
Management Information Manual, Part IV, documentation describing the methods used
to calculate the number of initial disability claims processed and initial disability claims
pending does not exist. The lack of documentation for the calculation of the number of


                                             4
initial disability claims processed and initial disability claims pending does not provide
the audit trail necessary to assist in the verification of these performance measure
indicators.

THE MEASUREMENT OF THE DI AND SSI INITIAL DISABILITY CLAIMS AVERAGE
PROCESSING TIME IS COMBINED

For FY 1999, the performance indicator for the initial disability claims average
processing times was 100 days, and SSA’s performance was 105 days. SSA
calculated this performance by combining both the DI and SSI claims processing times.
Historically, there have been differences in the amount of time it takes to process cases
in the different programs. In fact, the Code of Federal Regulations7 established different
threshold levels for DI and SSI disability claims processing by DDSs. We found that in
FY 1999, the average time to process a title II claim was 94.33 days, as compared to
114.02 days for title XVI. By combining the two types of claims, SSA does not
accurately reflect the performance of the two disability programs.

TERMINOLOGY USED IN PERFORMANCE INDICATORS IS INCONSISTENTLY
DEFINED

The reporting in the Accountability Report for two of the indicators in this audit may be
misleading. The two indicators share a similar name, but measure unrelated statistics
and use different data bases to do so. The title of one of the indicators is Initial disability
claims processing times (days), and the other is Number of initial disability claims
processed. The processing times (days) indicator measures the processing time of all
disability claims from the effective filing date to the date of determination. This indicator
is based on all claims that were filed at a FO, whether or not they were subsequently
entered into the NDDSS. However, the claims processed indicator, although it also
refers to “initial disability claims,” only includes cases entered into the NDDSS and does
not account for those claims that may have been decided at the FO level. This indicator
represents NDDS’ workload, not the total number of initial disability claims. For
FY 1999, SSA calculated the processing times (days) from a data base of
2,647,161 claims, while the number of claims processed was reported to be
2,013,089 claims.

Furthermore, the beginning date for the purposes of calculating processing time is
inconsistently determined. The effective date of the application for initial SSI disability
claims is generally the application date, which can be as soon as the date that a
claimant first contacts SSA or as late as the first day of the month for which a claimant
is found eligible for benefits. However, SSA policy stipulates that the application date
should be changed to reflect the date of filing if these two dates are in the same month.8
This allows the Agency to shorten reported processing time without disadvantaging the

7
 20 CFR 404.1642, as amended on March 14, 1991, established processing time standards for DDSs
which include threshold levels of 49.5 days for title II initial claims and 57.9 days for title XVI initial claims.
8
    Pub. L. No. 104-193.


                                                         5
claimant by withholding a month of payment. SSA staff, however, does not consistently
make this change. For cases in which the application date and the date of filing fall into
different months, no adjustment is made to the application date because such an
adjustment could cost the claimant his/her first monthly payment. The beginning date
can therefore reflect the date of filing for some cases or the date of first contact with the
Agency in other cases.

It is also possible for an application date to be restricted to a future date reflecting the
first day of the month for which a claimant is eligible for benefits based on program
requirements. A future application date can result in negative processing times if the
application is processed before this date. These negative processing times are counted
as zero when calculating average processing time. Errors in restricting the application
date, or other errors in changing the application date, may also result in negative
processing times or incorrectly shortened processing time. SSA policy allows for
changes to be made by FO staff to the application date. This date therefore lacks
computer controls, which would help guard against data errors and protect the integrity
of processing time data.

CONCLUSIONS AND RECOMMENDATIONS
Our audit found that the data used by SSA to report on the timely processing of initial
disability claims processing times (days), the number of initial disability claims
processed, and initial disability claims pending was reliable. However, our review
showed that: (1) the 2,013,089 processed claims identified in the FY 1999
Accountability Report was overstated by 1,042, which represents one-half of
one percent of the number of initial disability claims processed; (2) documentation
describing the method used to calculate the number of processed and pending cases
does not exist; (3) the measurement of initial disability claims average processing time
represents a combined measure of both DI and SSI claims processing rather than
individual measures for DI and SSI; and, (4) the term “initial disability claims” is
inconsistently applied, as is criteria used to determine the beginning date for measuring
processing time.

To ensure the proper reporting of the number of processed and pending claims, and to
better reflect actual processing times, we recommend SSA take the following corrective
actions:

1. Ensure that the number of initial disability claims processed are calculated and
   reported correctly;

2. Prepare documentation describing the methods used to calculate the number of
   initial disability claims processed and initial disability claims pending, including the
   addition of the HI/SMI claims;

3. Separate the reporting of the initial disability claims average processing times by
   program, rather than combining both the DI and SSI claims processing


                                              6
    times as one measure so differences between the programs, with their separate
    customer bases, can be identified;9

4. Clearly define performance indicators to reflect the types of initial disability claims
   actually measured; and,

5. Apply consistent criteria for determining the beginning dates used in processing
   time.

AGENCY COMMENTS
SSA agreed in principle with all five of our recommendations. SSA further commented
on three of the recommendations. In response to Recommendation 1, SSA agreed that
an accurate count of disability claims is essential to measuring SSA’s performance in
the processing of disability claims. However, SSA noted that, at the time of our review,
the number of initial disability claims processed was determined by calculation. SSA
stated that with the initiation of the Disability Operational Data Store (DODS), the actual
number of disability claims is now counted, not calculated. For recommendation 3, SSA
agreed with separate reporting of processing times by program for internal purposes,
but believes that separate measures are not appropriate for external reporting. Finally,
for Recommendation 5, SSA agreed that using consistent criteria in processing time is
critical to the overall performance. SSA added, however, that unique differences when
a potential beneficiary may apply for and become eligible for benefits between the title II
and title XVI programs must be considered when determining the beginning dates used
for processing times.

Additionally, SSA noted that the term “decision” is defined in the regulations at
20 C.F.R. § 404.901 as used when deciding a claim at the Administrative Law Judge
and the Appeals Council levels and that “determination” should be used at the initial or
reconsideration levels of the administrative review process.

OFFICE OF THE INSPECTOR GENERAL RESPONSE
We are pleased that SSA agreed in principle with our recommendations. Regarding
SSA’s response to Recommendation 1, we note SSA’s assertion that the DODS will
provide an accurate account of claims. This audit did not review the DODS.
Concerning SSA’s response to Recommendation 3, we continue to believe that
separate reporting of processing times by program is appropriate for both internal
purposes and external reporting. In regard to SSA’s response to Recommendation 5,

9
  We made this recommendation to SSA in a previous audit report—Review of the Social Security
Administration’s Fiscal Year 2000 Annual Performance Plan, A-02-99-03007, issued in November 1999.
SSA agreed that separate measures for title II and title XVI are sensible for internal tracking, but SSA did
not necessarily believe they were appropriate at this time for external reporting. SSA also stated that
prior indicators related to disability processing times were eliminated and replaced by interim measures to
help the Agency focus on its management strategy to maintain processing times and improve accuracy
for initial disability claims.


                                                     8
we agree that different programs require different policies concerning the start date
when determining processing times. Our report noted that SSA used different start
dates for different cases within the SSI program. We believe the same criteria for a
start date should be used within each program.

We look forward to receiving an implementation plan detailing the steps the Agency will
take to improve the performance measures concerning the processing of initial disability
claims.




                                                                                        ,




                                            8
                              Appendices
APPENDIX A - Scope and Methodology

APPENDIX B - Agency Comments

APPENDIX C - Acronyms

APPENDIX D - Flowchart of Disability Claims Processing Performance Measures

APPENDIX E - OIG Contacts and Staff Acknowledgments
                                                                                Appendix A

Scope and Methodology
This audit was conducted to assess the reliability of the Social Security Administration's
(SSA's) performance data used to measure the initial disability claims processing times
(days), the number of initial disability claims processed, and the number of initial
disability claims pending.

To test the reliability of SSA's performance data, we performed various audit steps and
relied on work performed in two recent Office of the Inspector General audits with
similar performance indicators. These audits included:

·     A Performance Measure Review: Reliability of the Data Used to Measure the
      Timeliness of Processing Supplemental Security Income Disability Claims10. The
      objective of this audit was to assess the reliability of SSA's performance
      measurement data for the percent of Supplemental Security Income (SSI) Disability
      claims decided within 60 days of filing. In this audit, we assessed the reliability of
      the data by replicating the processing time performance measure statistic for the
      period March through May 1999 and compared the replicated statistics to the
      Processing Times Report.

·     A Performance Measure Review: Reliability of the Data Used to Measure the Timely
      Processing of Disability Insurance Claims (A-02-99-11001). The objective of this
      audit was to assess the reliability of SSA’s performance measurement data for the
      percent of Disability Insurance claims decided within 6 months after onset or within
      60 days after effective filing date, whichever is later. In this audit, which will be
      finalized shortly, we assessed the reliability of the data by replicating the processing
      time performance measure statistic for 3 months, including November 1999,
      December 1999, and February 2000. We also recalculated the percent of timely
      cases for each of the 3 months reviewed and compared the results to SSA’s Service
      Delivery Objective 14 reports.

To test the reliability of SSA's performance data for the disability claims processing
times (days) indicator for this audit, we:

·     assessed the reliability of the data by replicating the processing time performance
      measure statistic for 3 months. Based on available data, this included
      November 1999, December 1999, and February 2000 for the Management
      Information Initial Claims Records data, and November 1999, December 1999 and
      January 2000 for the SSI Claims Report data;




10
     Common Identification Number A-02-99-11002 issued in final on December 1, 2000.


                                                  A-1
·   reviewed Management Information Manual (MIM) criteria for calculating processing
    time and applied such criteria to data reviewed;

·   compared and reconciled the number of monthly initial disability claims for the data
    reviewed to the numbers reported by SSA in their monthly Field Office (FO) Initial
    Disability Claims Report-Processing Times for title II and FO Initial SSI Blind &
    Disabled Claims Report-Processing Times for title XVI;

·   reconciled the number of title II and title XVI processed claims as stated in the
    monthly FO Initial Disability Claims Report-Processing Times and FO Initial SSI
    Blind & Disabled Claims Report-Processing Times for the entire Fiscal Year
    (FY) 1999 to SSA’s FY 1999 Accountability Report;

·   compared key dates in the data files to check for relationships between pertinent
    dates (i.e. beginning dates, end dates, and date of filing);

·   checked that the data reviewed contained valid entry codes and dates, and;

·   recalculated and verified the average processing time for initial disability claims as
    shown in the Accountability Report.

To test the accuracy and reliability of SSA's performance data for FY 1999 for the
number of initial disability claims processed and initial disability claims pending
indicators for this audit, we:

·   obtained record layouts for the State Agency Operations Reports (SAOR), which is a
    completed claims annual report for the National Disability Determination Services
    System (NDDSS);

·   identified, extracted, and summarized, through the use of IDEA, the pertinent fields
    from the SAOR files produced by NDDSS and calculated the number of initial
    disability claims processed and initial disability claims pending;

·   reviewed and applied MIM criteria to data files reviewed for determining the number
    of processed and pending claims;

·   assessed the reliability of the data by verifying that the data files agreed with the
    monthly SAOR reports;

·   verified that the number of initial disability claims processed and initial disability
    claims pending shown in the Accountability Report agreed with SSA data files.




                                              A-2
In conducting this audit, we also:

·   reviewed SSA's Accountability Report for FY 1999 and SSA's Annual Performance
    Plan for FY 1999 to determine the baseline data, definitions, and data sources for
    the performance indicators;

·   reviewed pertinent Government Performance and Results Act and Office of
    Management and Budget laws and regulations;

·   interviewed SSA staff from various departments to gain an understanding of the
    disability claims process as it applied to the three indicators audited; and,

·   flowcharted the disability claims process from the claimant’s initial contact with SSA
    to the generation of the reports for the three indicators audited (see Appendix C).

The review of controls over the various stages of the disability claims process was
based primarily on previous reviews performed by PricewaterhouseCoopers (PwC), as
well as work completed in the two Office of Inspector General reports mentioned at the
beginning of this section. PwC is a certified public accounting firm, contracted to
perform the FY 1998 and 1999 Financial Statement Audits and audits of certain
performance measures related to SSI Aged claims processing. Our work was
conducted at OIG’s New York FO and SSA Headquarters in Baltimore, Maryland. The
field work was conducted from July 2000 to May 2001. The entity audited was the
Office of Information Management within the Office of Systems. Our audit was
performed in accordance with generally accepted government auditing standards, as it
pertains to performance monitoring audits.




                                           A-3
                  Appendix B

Agency Comments
                                                               ~       SEc&
                                                          O~           c   ~;.\
                                                          "'                 ~
                                                                   USA.

                                                          '\     UII#
                                                               7J\-1syyJ"

                                           SOCIAL                  SECURITY



MEMORANDUM


          October   2,2001                                                        ReferTo:   s 11-3

To:       JamesG. Ruse, Jr.
          Inspector General
                                   /
          Larry G. Massanari   t          ~     ~-~-               -
          Acting ,                     ~oc al    curity


Subject   Office of the Inspector General (OIG) Draft Report, "Perfomlance Measure Review: Reliability
          of the Data Used to Measure Disability Claims Processing" (A-02-00-1 00 17)-INFORMA TION


          We appreciate OIG's efforts ip conducting this review. Our comments on the report content
          and recommendations are attached.

          Staff questions may be referred to Trudy Williams on extension 50380.

          Attachment:
          SSA Response
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON THE
OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT,
“PERFORMANCE MEASURE REVIEW: RELIABILITY OF THE DATA USED
TO MEASURE DISABILITY CLAIMS PROCESSING” A-02-00-10017

We appreciate the opportunity to comment on the draft report. Following are our
comments on the recommendations.

Recommendation 1
Ensure that the number of initial disability claims processed are calculated and reported
correctly.

SSA Comment
We agree. An accurate count of disability claims is essential to measuring SSA's
performance in the processing of disability claims. However, at the time the review was
conducted, the number of initial disability claims processed was determined by
calculation. With the initiation of the Disability Operational Data Store (DIODS), the
actual number of disability claims is now counted and not calculated. We suggest that
the advent of DIODS be noted in the subject report.

Also, the problem indicated in the report concerning erroneous inclusion of some
Hospital Insurance/Supplementary Medical Insurance (HI/SMI) cases has been corrected.


Recommendation 2

Prepare documentation describing the methods used to calculate the number of initial
disability claims processed and initial disability claims pending, including the addition of
the HI/SMI claims.

SSA Comment

We agree. Additional documentation regarding calculation methods will be added.

Recommendation 3
Separate the reporting of the initial disability claims average processing times by
program, rather than combine both the Disability Insurance and Supplemental Security
Income claims processing times as one measure so differences between the programs,
with their separate customer bases, can be identified.

SSA Comment

We agree with separate reporting of processing times by program for internal purposes.
We previously provided comments to this recommendation in an earlier OIG report,
“Review of the Social Security Administration’s Fiscal Year 2000 Annual Performance
Plan” (A-02-99-03007), issued in November 1999. We still believe that separate
measures are not appropriate for external reporting. We want to note that the
Management Information Initial Claims Records and Supplemental Security Income


                                            B-2
Claims Report, along with the Strategic Plan Report, already report disability claims
processing numbers and times by program. With regard to the recommendation
mentioned in the November 1999 report, SSA agreed that separate measures for title II
and title XVI are reliable and sensible management tools for internal tracking.

Recommendation 4

Clearly define performance indicators to reflect the types of initial disability claims
actually measured.

SSA Comment

We agree. Performance indicators should be clearly defined to reflect the types of initial
disability claims actually measured in order to have all report categories not only well
defined, but also consistent throughout both programs and all reports. The initial
disability claims processing time will be included in the Fiscal Year 2002 Performance
Plan.

Recommendation 5

Apply consistent criteria for determining the beginning dates used in processing time.

SSA Comment

We agree that using consistent criteria in processing time is critical to the overall
performance. However, we must add that there are differences in the title II and title XVI
programs in terms of when a potential beneficiary may apply for benefits and become
eligible for benefits. These unique differences must be considered when determining the
beginning dates used for processing times.

Other Comments

We wish to point out that “decision” is a defined term in the regulations at 20 C.F.R. §
404.901. This item is used when determining a claim at the Administrative Law Judge
and the Appeals Council levels and “determination” is used at the initial or
reconsideration levels of the administrative review process.

Also, Public Law No. 104-193, section 204(a), amended subparagraphs (A) and (B) of
section 1611(c)(7) of the Social Security Act with respect to applications for benefits
under title XVI filed on or after August 22, 1996. Generally, section 1611(c)(7) states
that the effective date of an application for SSI benefits is the first day of the month
following the later of the date the application is filed or the date the individual becomes
eligible for benefits. The second sentence in the third paragraph on page 5, under
Terminology Used in Performance Indicators is Inconsistently Defined, should be
revised. It is not clear whether the effective date of the application or the actual number
of days it took to process the decision is being addressed.




                                             B-3
                                                             Appendix C

Acronyms
DDS      Disability Determination Services
DI       Disability Insurance
DODS     Disability Operational Data Store
FO       Field Office
FY       Fiscal Year
GPRA     Government Performance and Results Act
HI/SMI   Hospital Insurance/Supplementary Medical Insurance
MCS      Modernized Claims System
MIICR    Management Information Initial Claims Records
MIM      Management Information Manual
MSSICS   Modernized Supplemental Security Income Claims System
NDDSS    National Disability Determination Services System
OIG      Office of the Inspector General
OIM      Office of Information Management
OMB      Office of Management and Budget
PwC      PricewaterhouseCoopers
RSDHI    Retirement, Survivors, Disability and Health Insurance
SA       State Agency
SAOR     State Agency Operations Report
SDO      Service Delivery Objective
SSA      Social Security Administration
SSACCS   Social Security Administration Claims Control System
SSI      Supplemental Security Income
SSICR    Supplemental Security Income Claims Report
WMS      Work Management System
                            Appendix D

Flowchart of Disability Claims
Processing Performance Measures
                   PERFORMANCE MEASURE REVIEW: RELIABILITY OF DATA USED TO MEASURE DISABILITY CLAIMS PROCESSING
                                                            CIN: A-02-00-10017


                   Claimant contacts SSA                                        CR interviews claimant via
                                                         Can a CR                                                             Is claimant                         Does
                    via FO visit, mail, or                                 Y      teleclaim or in-office                                                N
 START                                                 interview the                                                     potentially eligible                   claimant
                    phone call to FO or                                         appointment, first verifying
                                                      claimant today?                                                   for title II and/or title               insist on
                            TSC                                                    non-medical issues
                                                                                                                                   XVI?                           filing?

                                                            N
                                                                                                                                                    Y              N
                                                   Set up a teleclaim or
                                                   in-office appointment                                                          Y
                                                                                                                                                                  STOP



             Complete DI                                                                         If possible, make and
                                               Review                                                                                     Is this a                   A
           application forms                                        Determine effective             enter non-medical
                                             non-medical                                                                                non-medical         Y     (To page
            using MCS or                                                 filing date              decision into MCS or
                                                issues                                                                                     denial?                    3)
                MSSICS                                                                                   MSSICS

                                                                                                                                              N
 Create medical
folder with Form
    SSA-831


                                                                  DDS gathers & reviews                    If medical                          DDS reviews a
                        DDS inputs receipt of case                                                     information is not                   percentage of cases
Send folder to         on NDDSS, which interfaces                medical evidence in order
                                                                to make a medical decision             sufficient, a CE is                  through the DDS QA
    DDS                     with SSA systems                                                               scheduled.                             process




        DDS makes a decision and                                                                                                                                     B
                                                       Has NDDSS selected                     DDS forwards folder                DQB and medical
             enters the medical                                                        Y                                                                            (To
                                                       the case for Federal                    to DQB for review                 staff review case
         information in the NDDSS                                                                                                                                 Page 2)
                                                             review?

                                                                                                   C
                                                                                 N                (To
                                                                                 D-1            Page 3)
   B           Does DQB                      Classify the
                                     N                                  Is corrective                     Return folder
 (From       agree with DDS'                    type of                                              Y
                                                                       action required                    to DDS for
Page 1)          action?                    deficiency per
                                                                           by DDS?                       corrective action
                                                 POMS

                                                                              N
                      Y

                                                                     DQB takes whatever
          DQB reviewer signs and                                   other action is needed to
           dates Form SSA-831                                          perfect the claim



              C
             (To
            Page 3)
                          Does DDS agree               Follow corrective            Per POMS, does                     C
                                                Y                                                            N
                            with DQB's                action procedures,             case need to be                  (To
                             finding?                   per GN 4440.ff              returned to DQB?                 Page 3)


                                 N


                          Follow rebuttal                                                      Y
                          procedures, per
                            GN 4440.40
                                                                                         Return folder          Does DQB now        Y
                                                                                          to DQB for          determine that DDS
                                                                                             review           took proper action?

                             Is DQB in                N                                                                                    C
                          agreement with                                                                                                  (To
                              rebuttal?                                                                                 N               Page 3)

                                                                                                                 DQB adjudicates
                                                                                                                 or sends case to
                                 Y                                                                                   DDS again

                             Rescind
                            deficiency
                                                                       D-2
     C                DDS or DQB inputs
                                                                                   Workload                          Workload
   From               medical decision as                                                        Extract SAOR
                                                                                   Data                              Data
  (Page                reported on Form                                NDDSS                          Data                           'DDS Base'
  1 or 2)                  SSA-831



                  Case is closed on NDDSS or
                    DICARS and a decision is
                   transferred to SSA systems
                                                                                              Summarize                                            DDSs
                                                                                                                            DDS
                                                                                              and Create                   SAOR
                                                                                              DDS SAOR                     Report                 Regions
                                                                                                Report

                                         Did the CR input the                                                                                     Pending
       Folder is sent
                                      non-medical decision prior                                                                                  Weekly
        back to FO
                                      to sending folder to DDS?                                                                                     File

                                                                                               SAOR
                                                                                                                                    Reformat
                                                                                               Weekly
Adjudicate non-medical portion               N                                                                                      TAG Data
                                                                                              Summary
 of claim via MCS or MSSICS                                        Y                                                                 (Daily)
                                                                                              TAG Data



                                                 DO receipts in                  SAOR                  Sort and                      SAOR
    A                                                                         Master File
                                                   claim and                                          Correct File                  Summary
 (From             Folder is filed                                            (52 Weeks)
                                                 verifies inputs                                                                      Data
 page 1)
                                                  are updated
                                                                                                         FD-14 Reports
                                                                                                           for Regions               Processed Claims,
                                                                           FD-14 Report                      - Weekly                 including HI/SMI
                 E                   F                                   10 Regional Files                   -Monthly
              (Title II         (Title XVI                                   in MISF                        - Quarterly
            To Page 4)         To Page 4)                                                                - Semi-Annual               Pending Claims
                                                                                                              - Annual

                                                                                                        DDS Staffing
                                                                             FD-15 Report
                                                                                                       and Workload
                                                                               in MISF
                                                                                                      Analysis Reports
                                                                       D-3
                                                                                                                                F
      E                                                                                                                    (Title XVI
                       MCS updates WMS.                                            MIICR writes data for
   (Title II                                             MIICR reads info.                                                   From
                        SSA-1418 (screen)                                          completed claims into
    From                                                    from WMS                                                        Page 3)
                       updates SSACCS with                                           MIICR Master File
   Page 3)                                               and/or SSACCS
                         claim information
                                                                                                                   SSR is updated with
                                                                                                                   IDD and claim data
                                                                     MIICR Edit creates                                is routed to
                                                                      file of completed                             Exception Control*
                                                                     claims (weekly run)

                                                                                                           ZCDUCIS                         ZCXMAS
                                                                                                          Contains IC                   Recirculates the
                                                                                                       transactions from                data until initial
                             MIICR Calc computes                                                          SSI update                      claims are
   MIICR Switch                                              MIICR Sort sorts data by
                              processing time and                                                          operations                      complete
creates monthly file                                          component, office, etc.
                            determines if criteria has
of completed claims                                               (monthly run)
                             been met (monthly run)

                                                                                                       ZCSTATS is                   ZSSICPT                     SSICR
                                                                                                      generated when              Monthly file of              Title XVI
                        MIICR Summary produces a                                                                                 EOL records for             processing
                                                                                                      End Processing
                       record of summarized number                                                                                 delivery to               time system
                                                                                                      Date is posted/
                        of days and counts for each                                                                                  SSICR
                                                                                                         entered
                       processing time for each office




                                                                                                        End of Line
    End of Line                 Processing                 GETRSDHI                                                              Processing              GETSSICR
                                                                                                       Paraselection
   Paraselection                Time Report                                                                                      Time Report
                                                                                                         Reports
     Reports


                                                                         Calculation of Disability
                                                                        Claims Processing Times
                                                                       (days) for inclusion in SSAs
                                                                          Accountability Report

* Exception Control builds a statistical record for each initial claim processed, updates pending records and end of line records for claims clearances.




                                                                             D-4
                                                                Appendix E

OIG Contacts and Staff Acknowledgements
OIG Contacts
Frederick C. Nordhoff, Director, Financial Management and Performance
Monitoring Audit Division, (410) 966-6676

Timothy Nee, Deputy Director, (212) 264-5295

Acknowledgements
In addition to those named above:

   Arthur Treglia, Senior Auditor-in-Charge
   Jackie Patel, Auditor
   Denise Ramirez, Program Analyst
   Patrick Kennedy, Audit Manager
   Annette DeRito, Program Analyst

For additional copies of this report, please visit our web site at www.ssa.gov/oig
or contact the Office of the Inspector General’s Public Affairs Specialist at
(410) 966-1375. Refer to Common Identification Number A-02-01-10017.
                            DISTRIBUTION         SCHEDULE



                                                                             No. of
                                                                             Cogies

Commissioner of Social Security                                                 1
Management Analysis and Audit Program Support Staff, OFAM                      10

Inspector General                                                               1

Assistant Inspector General for Investigations                                  1
Assistant Inspector General for Executive Operations                            3
Assistant Inspector General for Audit                                           1
Deputy Assistant Inspector General for Audit                                    1
  Director, Systems Audit Division                                              1
  Director, Financial Management and Performance Monitoring Audit Division      1
  Director, Operational Audit Division                                          1

  Director, Disability Program Audit Division                                   1
  Director, Program Benefits Audit Division                                     1
  Director, General Management Audit Division                                   1
Issue Area Team Leaders                                                        25

Income Maintenance Branch, Office of Management and Budget                      1

Chairman, Committee on Ways and Means                                           1

Ranking Minority Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman, Subcommittee on Social Security                                       2
Ranking Minority Member, Subcommittee on Social Security                        1
Majority Staff Director, Subcommittee on Social Security                        2
Minority Staff Director, Subcommittee on Social Security                        2
Chairman, Subcommittee on Human Resources                                       1
Ranking Minority Member, Subcommittee on Human Resources                        1
Chairman, Committee on Budget, House of Representatives                         1
Ranking Minority Member, Committee on Budget, House of Representatives          1
Chairman, Committee on Government Reform and Oversight                          1
Ranking Minority Member, Committee on Government Reform and Oversight           1
Chairman, Committee on Governmental Affairs                                     1
Ranking Minority Member, Committee on Governmental Affairs                      1
Chairman, Committee on Appropriations,    House of Representatives            1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Committee on Appropriations,    U.S. Senate                         1
Ranking Minority Member, Committee on Appropriations,    U.S. Senate          1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate               1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                                1
Ranking Minority Member, Committee on Finance                                 1
Chairman, Subcommittee on Social Security and Family Policy                   1
Ranking Minority Member, Subcommittee on Social Security and Family Policy    1
Chairman, Senate Special Committee on Aging                                   1
Ranking Minority Member, Senate Special Committee on Aging                    1
Vice Chairman, Subcommittee on Government Management Information
  andTechnology                                                               1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
 Incorporated                                                                 1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                       1
Regional Public Affairs Officer


Total                                                                        97
                   Overview of the Office of the Inspector General


                                         Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration's (SSA) programs and makes recommendations to ensurethat
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assesswhether SSA' s financial statementsfairly present
the Agency's financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA' s programs. OA also conducts short-term
managementand program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG) by
providing information resource management; systemssecurity; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG's strategic planning function and the development and
implementation of performance measuresrequired by the Government Performance and Results
Act. OEO is also responsible for performing internal reviews to ensure that OIG offices
nationwide hold themselves to the samerigorous standardsthat we expect from the Agency, as
well as conducting employee investigations within OIG. Finally, OEO administers OIG's public
affairs, media, and interagency activities and also communicates OIG's planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (01) conducts and coordinates investigative activity related to fraud.
waste, abuse,and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees,third
parties, and by SSA employees in the performance of their duties. Or also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: l) statutes,regulations, legislation, and policy directives
governing the administration of SSA ' s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the DIG. The Counsel's office also administers the civil monetary penalty program.
